Case: 20-30384

Document: 00515526237

Page: 1

Date Filed: 08/13/2020

tHrntei) States Court of SUppeals
for tfje dftftf) Circuit
No. 20-30384

Demetrice Williams,
Petitioner—Appellant,
versus
Sandy McCain, Warden, Raymond Laborde Correctional
Center; Department of Corrections, State of
Louisiana,
Respondents—Appellees.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:19-CV-11974

Before Davis, Southwick, and Haynes, Circuit Judges.
Per Curiam:
This panel previously dismissed the appeal for want of jurisdiction.
The panel has considered Appellant's motion for reconsideration.
IT IS ORDERED that the motion is DENIED.

i

V

U.S. District Court - Eastern District of Louisiana

Demetrice Williams 310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

Case: 2:19-CV-11974 #12
17 pages.
Fri Jan,24 10:02:18 2020

§3

/

MIME-Version:1.0
F rom:Efile^Notice@laed.uscou rts.gov
To:Efile^Information
Bcc:
~
—Case Participants: Megan Teresa Suffern (msuffern@stbda.org,
mtsuffer@gmail.com)
—Non Case Participants: Quality Control Clerks
(qc^clerkglaed.uscourts.gov)
—No Notice Sent:
Message-Id:<10298226@laed.uscou rts.gov>
Subject:Activity in Case 2:19-cv-11974-MLCF Williams v. McCane, et al.
Report and Recommendations
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States
policy permits attorneys of record and parties in a case (including pro se
litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer. PACER
access fees apply to all other users. To avoid later charges, download a
copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Eastern District of Louisiana
Notice of Electronic Filing
The following transaction was entered on 1/24/2020 9:58 AM CST and filed
on 1/24/2020
Case Name: Williams v. McCane, et al.
Case Number: 2:19--cv-l-1974-MLCF
https://ec f.laed.uscourts.gov/cgi-bin/DktRpt.pi 7240710
Filer:
Document Number: 12
Copy the URL address from the line below into the location bar
of your Web .browser to view the document:
https://ecf.laed.uscourts.gov/docl/085111522554?caseid=240710&de=_seq._num=41
&magicji um=MAGIC

Docket Text:
REPORT AND RECOMMENDATIONS: IT IS RECOMMENDED
that the [3] Petition for Writ of Habeas Corpus (28:2254) filed by
Demetrice
Williams be DISMISSED WITH PREJUDICE as time-barred. Objections to R&R due
by 2/7/2020. Signed by Magistrate Judge Karen Wells Roby on January 23,
2020.(mp)

2:19-cv-11974-MLCF Notice has been electronically mailed to:
Megan Teresa Suffern msuffern@stbda.org, mtsuffer@gmail.com
2:19-cv-11974-MLCF Notice has been delivered by other means to:
Demetrice Williams
310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

/

t

The following document(s) are associated with this transaction:
Document description: Main Document
Original filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp^ID=1091133085 [Date=l/24/202G] [FileNumber=10298225-0]
[2db257f9c966dd702eQ431297ade025aOa68859878e3aacf7743bOed85f2e6894a87e83fea
2568fa512666Gc3e5f616b3c3582efb7787a55b62bl5b6f15c2306]]

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
DEMETRICE WILLIAMS

CIVIL ACTION

VERSUS

NO. 19-11974

(WARDEN) SANDY MCCAIN, ET AL.

SECTION “F”(4)

REPORT AND RECOMMENDATION
This matter was referred to a United States Magistrate Judge to conduct hearings, including
an evidentiary hearing if necessary, and to submit proposed findings and recommendations
pursuant to 28 U.S.C. § 636(b)(1)(B) and (C), and as applicable, Rule 8(b) of the Rules
Governing Section 2254 Cases. Upon review of the entire record, the Court has determined that
this matter can be disposed of without an evidentiary hearing. See 28 U.S.C. § 2254(e)(2) (2006).
I.

Factual and Procedural Background
The petitioner, Demetrice Williams (“Williams”),2 is a convicted inmate incarcerated in

the Raymond Laborde Correctional Center in Cottonport, Louisiana.3

On March 25, 2009,

Williams was indicted by a St. Bernard Parish Grand Jury for the aggravated rape of J.J., a child
under the age of 13, that occurred on or about the month of December, 1999.4 The State presents
the facts leading to Williams’s indictment:.5
On or about December 12,2008, J.J (7/14/90) disclosed to Sgt. Canepa three
separate instances of aggravated rape committed in St. Bernard Parish by Demetrice
‘Under 28 U.S.C. § 2254(e)(2), an evidentiary hearing is held only when the petitioner shows that either the
claim relies on a new, retroactive rule of constitutional law that was previously unavailable or a factual basis that could
not have been previously discovered by the exercise of due diligence and the facts underlying the claim show by clear
and convincing .evidence that, but for the constitutional error, no reasonable jury would have con victed-the petitioner.
2The Court notes the discrepancies in die spelling of Petitioner's name and adopts the spelling “Demetrice
Williams” from Petitioner’s Original Deficient Petition. See Rec. Doc. No. 1 and Rec. Doc. No. 3 (Petitioner spelling
his name “Demetrius Williams Sr.”).
3Re/c. Doc. No. 3.
4St Rec. Vol. 1 of 1, Indictment. 3/25/09. The Court refers to the minor victim by her initials.
5Rec. Doc. No. 11 -1, pp. 5-6. Because Williams entered a plea of guilty, the record and state court opinions
do not include the underlying facts of the case. In its opposition, the State provided the facts repeated here.

-p

Williams, the husband of J.J.’s mother. During the interview, J.J. stated that her
mother married Petitioner in 1995. Although she primarily lived with her
grandmother, J.J. would go visit and stay with her mother and Petitioner about twice
a month.
The first rape occurred on an unknown day, when J.J. was just seven (7)
years old. While at her mother and Petitioner’s house, Petitioner demanded that
J.J. touch his penis with her hand under his underwear. After J.J. complied,
Petitioner removed J.J.’s pants and underwear and penetrated her vagina with his
penis. After approximately ten minutes of vaginal sexual intercourse with J.J.,
Petitioner wiped her body with a towel, placed an unknown jelly-like substance on
J.J.’s vagina, and advised her to get dressed.
The second rape occurred on an unknown night, when J.J. was
approximately nine (9) years old. Petitioner advised J.J. to sleep in his bedroom
since J.J.’s mother was not at home. When J.J. walked into the bedroom, Petitioner
was naked and took an unknown object out of his dresser drawer. Petitioner
removed J.J.’s pajama bottoms and penetrated her vagina with his penis. After
approximately ten (10) minutes of having vaginal intercourse, Petitioner removed
his penis from J.J.’s vagina, wiped her body with a towel, and told her to go back
to her bedroom.
The third rape occurred on an unknown day, approximately two months
after the second rape. While in the living room of the residence, Petitioner
demanded that J.J. remove her shorts and sit on his lap. J.J. complied and Petitioner
removed his penis from his boxer shorts and penetrated J.J.’s vagina with his penis.
Moments later, J.J.’s half-sister entered the room and quickly turned around to exit
the room. Petitioner demanded J.J. get dressed and go into the children’s bedroom.
On October 6, 2009, Williams entered plea of guilty to the reduced charge of attempted .
aggravated rape.6 After waiver of legal delays, the state trial court sentenced him to serve twentyfour (24) years in prison without benefit of parole, probation, or suspension of sentence.
Williams’s conviction was final under federal law thirty (30) days later, on November 5,
2009, because he did not timely seek reconsideration of the sentence or move for leave to appeal.
La. Code Crim. P. art. 914;7 Butler v. Cain, 533 F.3d 314, 317 (5th Cir. 2008) (“[A] conviction

6St. Rec. Vol. 1 of 1, Plea Minutes, 10/6/09; Plea Transcript, 10/6/09.
Louisiana law requires a criminal defendant to move for leave to appeal within thirty (30) days of the order
or judgment being appealed or a ruling on a timely motion to reconsider a sentence. La. Code Crim. P. art. 914 (as
amended La. Acts 2003, No. 949, § 1). Failure to move timely for appeal under Art. 914 rendered the conviction and
sentence final at die expiration of that period. State v. Counterman, 475 So.2d 336, 338 (La. 1985).
2

✓

becomes final when the time for seeking further direct review in the state court expires.”) (quoting
Roberts v. Cockrell, 319 F.3d 690, 694 (5th Cir. 2003)).
Almost two years later, on September 22, 2011, Williams through counsel filed with the
state trial court an application for post-conviction relief asserting two claims:8 (1) he was denied
due process when the prosecution failed to turn over evidence favorable to the defense that was
requested during discovery; and (2) counsel provided ineffective assistance when he failed timely
to subpoena witnesses and records. On September 12, 2013, following several hearings and
additional briefing, the state trial court denied the application finding the claims meritless.9
On May 8, 2014, the Louisiana Fourth Circuit Court of Appeal summarily denied
Williams’s counsel-filed writ application seeking review of that order.10 The Louisiana Supreme
Court also denied his counsel-filed writ application on March 27, 2015, without stated reasons.11
More than seventeen months later, on August 30, 2016, Williams filed pro se a second
application for post-conviction in which he asserted that his guilty plea was unconstitutional
because he would be subject to the sex offender registration requirements.12 The state trial court
appointed counsel and allowed additional briefing.11^ CoiTh-fav 31. 2017, the stateRnal court''‘Tj

8St. Rec. Vol. 1 of 1, Application for Post-Conviction Relief, 9/22/11.
9St. Rec. Vol. 1 of 1, Trial Court Judgment, 9/12/13; see also, Hearing Minutes, 12/6/11; Hearing Minutes,
2/28/12; Hearing Minutes, 4/10/12; Hearing Minutes, 7/12/12; Hearing Minutes, 9/19/12; Hear ing Transcript, 9/19/12;
Post-Trial Memorandum, 2/6/13.
I0St. Rec. Vol. 1 of 1,4th Cir. Order, 2014-K-0018, 5/8/14.
u State v. Williams, 162 So.3d 377 (La, 2015); St. Rec. Vol. 1 of 1, La. S. Ct. Order, 2014-KP-1197, 3/27/15.
l2St. Rec. Vol. 1 of 1, Application for Post-Conviction Relief, 10/26/16 (dated 8/30/16). The record reflects
that Williams first submitted his application to the state trial court on August 30, 2016, and lie was then provided with
form documents to complete. The application eventually was file-stamped October 26, 2016. See St. Rec. Vol. 1 of
1, Letter to Court, 8/10/16; Letter to Williams, 9/21/16; Letter to Court. 10/17/16.
l3St. Rec. Vol. 1 of 1, Hearing Minutes, 11/29/16; Memorandum in Support, 3/21/17; State’s Opposition,
3/31/17; Supplemental Memorandum in Support, 4/17/17; State’s Supplemental Memorandum, 4/25/17.
3

/

Overruled' tKe State’s procedural objections of successiveness and untimeliness and granted
Wiffiams-an evidgntiar}^hearing.Qmhisjclaims.j^., .
The State sought review in the Louisiana Fourth Circuit.15 On July 25, 2017, the Court
granted the application, reversed the state trial court, and denied Williams’s post-conviction
application as untimely under La. Code Crim. P. art. 930.8.16
Both Williams and his counsel sought review of the appellate court’s ruling in the
Louisiana Supreme Court.17

On October 29, 2018, the Court denied the counsel-filed writ

application for seeking untimely review under La. Code Crim. P. art. 930.8 and State ex rel. Glover
v. State, 660 So.2d 1189 (La. 1995) and as repetitive under La. Code Crim. P. art. 930.4.18 That
same day, the Court denied Williams’s pro se writ application as moot citing its other order.19
(Several weeks later, on December 6, 2018, Williams submitted to the state trial court a
1 motion to correct his allegedly illegal sentence.20 After the Louisiana Fourth Circuit granted,
mandamus relief the-state.-trial ■coiu1.'aOTieartheTmdtiOn:on:MarclrT3T2pj.9, as repetitive and,
>

successive of the two prior applications for post-conviction relief.21

On June 13,. 2019, fhe^

• '. Louisiana Fourth Circuit denied his related writ application for the same reasons asthetrialcourt.2^

I4St. Rec. Vol. 1 of 1, Hearing Minutes, 5/31/17; see also Hearing Minutes 1/24/17, Hearing Minutes,
4/25/17.
15St. Rec. Vol. 1 of 1,4th Cir. Writ Application, 2017-K-0507, dated 6/12/17.
16St. Rec. Vol. 1 of 1, 4th Cir. Order, 2017-K-0507, 7/25/17.
nSt. Rec. Vol. 1 of 1, La. S. Ct. Letter, 2017-KP-1465, 8/25/17; La. S. Ct. Letter, 2017-KH-1495.
iSState v. Williams, 255 So.3d589(La.2018); St. Rec. Vol. 1 of 1, La. S. Ct. Order, 2017-KP-1465,10/29/18.
]9Staie ex rel..Williams v. Stale, 254 So.3d 698 (La. 2018); St. Rec. Vol. 1 of I, La. S. Ct. Order, 2017-KP1495, 10/29/18.
20St. Rec. Vol, 1 of 1, Motion to Correct an Illegal Sentence, 12/18/18 (dated 12/6/18).
2lSt. Rec. Vol. I of 1, Trial Court Order, 3/13/19; Trial Court Order (2), 3/13/19; 4th Cir. Order, 2019-K0166, 3/6/19; 4th Cir. Mandamus Application, 2019-K-0166, 2/21/19 (dated 2/7/19).
22St. Rec. Vol. 1 of 1,4tli Cir. Order, 2019-K-0454, 6/13/19; 4th Cir. Writ Application, 2019-K-0454, dated
5/17/19.
4

II.

Federal Petition
On August 21, 2019, after correction of certain deficiencies, the clerk of this Court filed

Williams’s federal petition for habeas corpus relief in which he asserts that his guilty plea was
obtained in violation of his constitutional rights where the state withheld evidence of his innocence
and his counsel was negligent.23 The State filed a response in opposition asserting that Williams’s
federal petition should be dismissed as untimely filed and otherwise for failure to state a cognizable
federal claim.24
III.

General Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104-

132, 110 Stat. 1214,25 applies to Williams’s petition, which is deemed filed in this Court under the
mailbox rule on July 30, 2019.26 The threshold questions on habeas review under the amended
statute are whether the petition is timely and whether the claim raised by the petitioner was
adjudicated on the merits in state court; i.e., the petitioner must have exhausted state court remedies

23Rec. Doc. No. 3.
24Rec. Doc. No. 11.
25T'he AEDPA comprehensively revised federal habeas corpus legislation, including 28 U.S.C. § 2254, and
applied to habeas petitions filed after its effective date, April 24,1996. Flanagan v. Johnson, 154 F.3d 196, 198 (5th
Cir. 1998) (citing Lindh v. Murphy, 521 U.S. 320 (1997)). The AEDPA, signed into law that date, does not specify
an effective date for its non-capital habeas corpus amendments. Absent legislative intent to the contrary, statutes are
effective at the moment they are signed into law. United States v. Sherrod, 964 F.2d 1501, 1505 n.l 1 (5th Cir. 1992).
26The Fifth Circuit has recognized that a “mailbox rule” applies to pleadings, including habeas corpus
petitions filed after the effective date of the AEDPA, submitted to federal courts by prisoners acting pro se. Under
this rule, the date when prison officials receive the pleading from the inmate for delivery to the com! is considered the
time of filing for limitations purposes. Coleman v. Johnson, 184 F.3d 398,401 (5th Cir. 1999); Spotville v. Cain, 149
F.3d 374, 378 (5th Cir. 1998); Cooper v. Brookshire, 70 F.3d 377, 379 (5th Cir. 1995). The clerk of court initially
docketed Williams’s deficient petition on July 30,2019, when it was received. The corrected petition was filed August
21, 2019, and Williams later paid the filing fee. Williams dated his signature on the original pleading on July 30,
2019. This is the earliest date appearing in the record on which Williams could have handed his pleadings to prison
officials for mailing to a federal court. Payment of the filing fee does not alter the application of the federal mailbox
rule to his pro se petition. See Cousin v. Leasing, 310 F.3d 843, 847 (5th Cir. 2002).
5

✓

and must not be in “procedural default” on a claim. Nobles v. Johnson, 127 F.3d 409,419-20 (5th
Cir. 1997) (citing 28 U.S.C. § 2254(b), (c)).
The State asserts and the record shows that Williams’s federal petition was not timely filed
under the AEDPA. For the following reasons, the petition should be dismissed as time-barred.
IV.

Statute of Limitations
The AEDPA codified in 28 U.S.C. § 2244(d)(1)(A) requires a petitioner to bring his § 2254

claim within one year of the date his conviction became final.27 Duncan v. Walker, 533 U.S. 167,
176-80 (2001). As stated above, Williams’s conviction was final under federal law on November
5, 2009, when he did not seek review of his conviction or sentence. Pursuant to § 2244, Williams
had one year from that date, or until November 5, 2010, to timely file a federal application for
habeas corpus relief, which he did not do. Thus, literal application of the statute would bar
Williams’s petition as of that date unless he is entitled to tolling as provided for under the AEDPA.
A.

Statutory Tolling

Section 2244(d)(2) provides that the time during which a properly filed application for state .
post-conviction or other collateral review with respect to the pertinent judgment or claim is

27The statute of limitations provision of the AEDPA provides for other triggers which do not apply here:
(1) A 1-year period of limitation shall apply to an application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court. The limitation period shall run from the latest ofA.
the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
B.
the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was
prevented from filing by such State actions;
C.
the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases oh collateral review; or
D.
the date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction or other collateral review
with respect to the pertinent judgment or claim is pending shall not be counted toward any period of
limitation under this subsection. 28 U.S.C. § 2244(d).
6

/

pending shall not be counted toward any period of limitation. See 28 U.S.C. § 2244(d)(2). In
order for a state post-conviction application to be considered “properly filed” within the meaning
of § 2244(d)(2), the applicant must have complied with all of the State’s procedural requirements,
such as timeliness and place of filing. Pace v. DiGuglielmo, 544 U.S. 408, 413-14 (2005);
Williams v. Cain, 217 F.3d 303, 306-08 & n.4 (5th Cir. 2000) (quoting Smith v. Ward, 209 F.3d
383, 384-85 (5th Cir. 2000)); Villegas v. Johnson, 184 F.3d 467, 468-69 (5th Cir. 1999), reh’g
denied, 196 F.3d 1259 (5th Cir. 1999). For purposes of the AEDPA, a timeliness calculation in
Louisiana requires the application of the prison mailbox rale to state pleadings. Causey v. Cain,
450 F.3d 601, 604-05 (5th Cir. 2006). The Court has applied this rale in presenting the procedural
history recited above.
A matter is “pending” for § 2244(d)(2) purposes “as long as the ordinary state collateral
review process is ‘in continuance.’” Carey v. Saffold, 536 U.S. 214,219-20 (2002); Williams, 217
F.3d at 310 (quoting Bennett v. Artuz, 199 F.3d 116, 120 (2d Cir. 1999)) (finding that a matter is
“pending” for Section 2244(d)(2) purposes until further appellate review is unavailable under
Louisiana’s procedures.); see also Melancon v. Kaylo, 259 F.3d 401, 405 (5th Cir. 2001).
The phrase “other collateral review” in the statute refers to state court proceedings
challenging the pertinent judgment subsequently challenged in the federal habeas petition.
Dillworth v. Johnson, 215 F.3d 497, 501 (5th Cir. 2000) (finding that a state habeas petition
challenging a prior conviction in one county was other collateral review even though filed as a
challenge to a second conviction in a different count}'); Nara v. Frank, 264 F.3d 310, 316 (3d Cir,
2001), overruled on other grounds by Carey, 536 U.S. at 214 (finding that a motion to withdraw
a guilty plea is “other collateral review”). A “pertinent judgment or claim” requires that the state
filings for which tolling is sought must have challenged the same conviction being challenged in
7

the federal habeas coipus petition and must have addressed the same substantive claims now being
raised in the federal habeas corpus petition. Godfrey v. Dretke, 396 F.3d 681, 687-88 (5th Cir.
2005).
In Williams’s case, the AEDPA filing period began to run on November 6, 2009, the day
after his conviction was final under federal law. The one-year AEDPA filing period continued to
run uninterrupted for one year, until November 5,2010, when it expired. Williams had no properly
filed state application for post-conviction relief or other collateral review pending in the state
courts during this time period. Williams first state court post-conviction pleading was filed by his
counsel on September 22, 2011, well after the AEDPA filing period expired. Williams is not
entitled to renewal of the filing period or other tolling benefits for pleadings filed after the AEDPA
one-year limitations period has already expired. See Scott v. Johnson, 227 F.3d 260, 263 (5th Cir.
2000) (a filing made after the expiration of the AEDPA one-year filing period does not renew or
extend the AEDPA filing period or provide a petitioner any tolling benefits); Higginbotham v.
King, 592 F. App’x 313, 314 (5th Cir. 2015) (same).
Williams’s federal petition deemed filed under tire mailbox rule on July 30,2019, was filed
eight years and almost nine months after the AEDPA filing period expired on November 5, 2010.
His federal petition was not timely filed and should be dismissed with prejudice for that reason.
B.

No Equitable Tolling

The post-AEDPA jurisprudence also provides for equitable tolling where rare or
extraordinary circumstances may have prevented a diligent petitioner from timely pursuing federalhabeas corpus. Pace, 544 U.S. at 419; Fisher v. Johnson, 174 F.3d 710, 713 (5th Cir. 1999), cert,
denied, 531 U.S. 1164 (2001); Cantu-Tzin v. Johnson, 162 F.3d 295, 299 (5th Cir. 1998); Davis v.
Johnson, 158 F.3d 806, 810-11 (5th Cir. 1998), cert, denied, 526 U.S. 1074 (1999). Williams has
8

/

not presented, and the record does not demonstrate, any basis for extending the extraordinary
remedy of equitable tolling to tire § 2244(d) calculation.
Equitable tolling is warranted only in situations where the petitioner was actively misled
or is prevented in some extraordinary circumstance outside of his control from asserting his rights.
Pace, 544 U.S. at 418-19; see Cousin v. Unsing, 310 F.3d 843, 848 (5th Cir. 2002); see Holland
v. Florida, 560 U.S. 631, 652-53 (2010) (finding that equitable tolling was warranted where
-^-.attorney was more than negligent when he failed to satisfy professional standards of care by

/

ignoring the client’s requests to timely, file a federal petition and in foiling to communicate with '
, £ !he client over a Period of years in spite of the clients letters)^ Hardy v. Quarterman, 577 F.3d
596, 599-600 (5th Cir. 2009) (finding that equitable tolling was warranted where petitioner
suffered a significant state-created delay when, for nearly one year, the state appeals court failed
in its duty under Texas law to inform him that his state habeas petition had been denied, petitioner
diligently pursued federal habeas relief, and he persistently inquired to the court.); United States
v. Wynn, 292 F.3d 226, 230 (5th Cir. 2002) (finding that tolling was warranted when defendant
was deceived by attorney into believing that a timely motion to vacate was filed); Coleman v.
Johnson, 184 F.3d 398, 402 (5th Cir. 1999) (quotation omitted) (“A garden variety' claim of
excusable neglect does not support equitable tolling.”); Fisher, 174 F.3d at 715 (finding that tolling
is not justified dining petitioner’s seventeen-day stay in psychiatric ward, during which he was
confined, medicated, separated from his glasses and thus rendered legally blind, and denied
meaningful access to the courts); Cantu-Tzin, 162 F.3d at 300 (finding that State’s alleged failure
to appoint competent habeas counsel did not justify tolling); Davis, 158 F.3d at 808 n.2 (assuming
without deciding that equitable tolling was warranted when federal district court three times
extended die deadline to file habeas corpus petition beyond expiration of AEDPA grace period).
9

/

Williams has made no such showing in this case, and he is not entitled to equitable tolling
of the one-year AEDPA limitations period. His federal petition was not timely filed and should
be dismissed with prejudice for that reason.
C.

No Actual Innocence Exception

Williams claims that he has proof that he was incarcerated during the month of December,
1999, which is the month stated in the indictment as the time when the rapes took place. He
suggests that this would prove his innocence, and he should be allowed to withdraw his guilty plea.
The Supreme Court has held that “actual innocence, if proved, serves as a gateway through
which a petitioner may pass” notwithstanding the “expiration of the statute of limitations” under
the AEDPA. McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). “This rule, or fundamental
miscarriage of justice exception, is grounded in the ‘equitable discretion’ of habeas courts to see
that federal constitutional errors do not result in the incarceration of innocent persons.” Id. at 392,
(quoting Herrera v. Collins, 506 U.S. 390, 404 (1993)).
The Supreme Court, however, has cautioned that “[t]he miscarriage of justice exception,
we underscore, applies to a severely confined category: cases in which new evidence shows ‘it is
more likely than not that no reasonable juror would have convicted [the petitioner].”’ Id. at 394OS (quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)). The Supreme Court has made clear that
habeas corpus petitions that advance a substantial claim of actual innocence are extremely rare.”
Schlup, 513 U.S. at 321.
Thus, the Supreme Court construes the “actual innocence” doctrine narrowly. See Sawyer
v. Whitley, 505 U.S. 333, 339-40 (1992) (explaining that the actual innocence doctrine is “narrow”
and typically “concerned with actual as compared to legal innocence”)vThe Court has held, that

i

the concept of actual 'innocence lCpiftereni from the concept of legal innocence. M at 339-40; j
10

/

Smith v. Murray, All U.S. 527, 537 (1986). fin the context of a noncapital case, the concept of f
factual innocence’ is easy to. grasp,” and means simply a “mistake” was made and “the State has r
'convicted the wrong person of the crime.’’ Sawyer, 505 U.S. at 341.
In applying the actual innocence doctrine, die United States Fifth Circuit Court of Appeals
has held that evidence is “not ‘new’ [when] it was always within the reach of [petitioner’s] personal
knowledge or reasonable investigation.” Moore v. Quarterman, 534 F.3d 454,465 (5th Cir. 2008);
Hancock v. Davis, 906 F.3d 387, 389 (5th Cir. 2018), cert, denied, 139 S. Ct. 2714 (2019)
("[etyidence does not qualify as ‘new’ under the Schlup actual-innocence standard if ‘it was always
within the reach of [petitioner’s] personal knowledge or reasonable investigation.’”) (quoting
Moore, 534 F.3d at 465). In this case, however, Williams has not presented any new evidence of
his alleged actual innocence based on December 1999 as the crime date averred in the indictment.
The questions of Williams’s incarceration during December of 1999 and whether he could

p.

have committed rapes in December of 1999 were matters known and considered by Williams and
his counsel prior to the plea of guilty. Williams’s trial counsel testified on state post-conviction
review that, early in the case, Williams advised that he was incarcerated in December of 1999
when the alleged rapes occurred.28 Williams’s counsel also testified that he investigated the dates
of Williams’s incarceration and subpoenaed the records from the Sheriffs office.29 After receiving
the subpoena, the head of criminal records for the Sheriffs Office requested that Williams’s
counsel go to her office to review the records.30 The officer also infomied counsel that tire

28St. Rec. Vol. 1 of 1, Hearing.Transcript, pp. 14-16, 9/19/12.
29ld. at 5-6, 20.
30Id. at 6.
11

/

restricted records could not be copied, but she agreed to appear in court for trial and bfirig-fhe/
documents' (Williams’s counsel conceded in Ms testimony that Louisiana law did not require that the '
\

exact dates of the rapes be included in the indictment for tliis type of charge.31 However, even if t
the State amended the. indictment before trial to'remove the date, he planned to use the

4

incarceration records to show that Williams “was actually incarcerated during the periods of time :
that die bill of information indicated that he committed these criminal acts.”3? .
1 hus, Williams’s counsel was well-aware of the incarceration records and planned to use

/

ihose records arid the dates of incarceration to challenge the victim’s credibility at trial and to
.bolster the defense’s arguments to the jury.33 Therefore, Williams had the alleged exculpatory

i

i

information available for trial. His counsel simply had no opportunity to present the evidence or
• 22g^1^^-triaI*ecat«e of^aii.ams,s guilty plea. Accord Boykin v. Alabama, 395 U.S. 238,
242 (1969) (“A plea of guilty is more than a confession which admits that the accused did various

{

acts; it is itself a conviction; notMng remains but to give judgment and determine punishment.”)*'
Tor these reasons, the information Williams'now.relies on to bypass the AEDPA'statute of f
limitations is not new and does hot invoke the rare actual innocence exception under Schlup or /
McQuiggin.
D.

No Exception under Martinez

Although Williams’s petition asserts claims of ineffective assistance of trial counsel, the
United States Supreme Court’s holdings in Martinez v. Ryan, 566 U.S. 1 (2012) and Trevino v.

Id. at 16-20.
33Id at 16-20,22.
33Id. at 22-23.
12

/

A

Thaler, 569 U.S. 413 (2013), do not provide a basis for review of his untimely filed federal petition
or his ineffective assistance of trial counsel claims. In Martinez, the Supreme Court held that a
state court imposed ‘“procedural default will not bar a federal habeas court from hearing a
substantial claim of ineffective assistance at trial if, in the [state court’s] initial-review collateral
proceeding, there was no counsel or counsel in that proceeding was ineffective.’” Trevino, 569
U.S. at 417 (quoting Martinez, 566 U.S. at 17) (emphasis added). Neither is at issue in this case. .
Instead, the bar to review at issue here arises from Williams’s failure to meet the federal
limitations deadline under the AEDPA. The Martinez and Trevino decisions do not address or
provide an excuse for the untimely filing of a federal habeas petition. See Arthur v. Thomas, 739
F.3d 611, 631 (11th Cir. 2014) (“Thus, we also hold that the reasoning of the Martinez rule does
not apply to AEDPA’s limitations period in § 2254 cases or any potential tolling of that period.”);
Smith v. Rogers, No. 14-0482, 2014 WL 2972884, at * 1 (W.D. La. Jul. 2, 2014); Falls v. Cain,
No. 13-5091, 2014 WL 2702380, at *3 (E.D. La. Jun. 13, 2014) (Order adopting Report). The
Martinez and Trevino opinions also do not constitute new rules of constitutional law made
retroactive on collateral review to start a new one-year filing period under the AEDPA. See In re
Paredes, 587 F. App'x 805, 813 (5th Cir. 2014) (“. . . the Supreme Court has not made either
Martinez or Trevino retroactive to cases on collateral review, within the meaning of 28 U.S.C. §
2244.”); Adams v. Thaler, 679 F.3d 312, 322 n.6 (5th Cir. 2012). Thus, neither Martinez nor
Trevino provide Williams’s relief from the untinieliness of his federal petition.
V.

Recommendation

--------

For the foregoing reasons, it is RECOMMENDED that Demetrice Williams’s petition for
issuance of a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 be DISMISSED WITH
PREJUDICE as time-barred.
13

A party's failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that part}', except upon grounds of plain error, from
. attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by
the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. Douglass v. United Servs. Auto. Assoc., 79 F.3d 1415, 1430 (5th
Cir. 1996).34
New Orleans, Louisiana, this 23rd day of January, 2020.

KAREN WELLS ROW J
CHIEF UNITED STATES MAGISTRATE JUDGE

34Douglass referenced the previously applicable ten-day period for the filing of objections. Effective
December 1, 2009. 28 U.S.C. § 636(b)(1) was amended to extend the period to fourteen days.
14

✓

/

'—A

P'-’

20-30384

Mr. Demetrice Williams
#310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

l

f

Case: 20-30384

Document: 00515494384

Page: 1

Date Filed: 07/17/2020

No. 20-30384

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 20-30384

IP
^ICIlvS

DEMETRICE WILLIAMS

A True Copy
Certified order issued Jul 17, 2020

Petitioner - Appellant

dwlt UJ.
Clerk, U.S. Court of Appeals, Fifth Circuit

V.

SANDY MCCAIN, WARDEN, RAYMOND LABORDE CORRECTIONAL
CENTER; DEPARTMENT OF CORRECTIONS, STATE OF LOUISIANA,
Respondents - Appellees

Appeal from the United States District Court
for the Eastern District of Louisiana

Before DAVIS, SOUTHWICK, and HAYNES, Circuit Judges.
PER CURIAM:
This court must examine the basis of its jurisdiction, on its own motion
if necessary. Hill v. City of Seven Points, 230 F.3d 167. 169 (5th Cir. 2000).
Pursuant to 28 U.S.C. § 2107/al and Federal Rule of Appellate Procedure
4(aVD(AV the notice of appeal in a civil case must be filed within thirty days
of entry of judgment.
In this habeas corpus case filed by a state prisoner, the final judgment
was entered and certificate of appealability was denied on March 30, 2020.

t

Therefore, the final day for filing a timely notice of appeal was April 29, 2020.

/

The petitioner’s pro se notice of appeal is dated June 14, 2020 and stamped as

>

1

\

\

»,

Case: 20-30384

Document: 00515494384

Page: 2

Date Filed: 07/17/2020

No. -20-30384
filed on June 18, 2020. Because the notice of appeal is dated June 14, 2020, it
could not have been deposited in the prison’s mail system within the prescribed
time. See FED. R. APP. P. 4(c)('l') (prisoner’s pro se notice of appeal is timely
filed if deposited in the institution’s internal mail system on or before the last
day for filing). When set by statute, the time limitation for filing a notice of
appeal in a civil case-is jurisdictional Hamer v. Neighborhood Hous. Servs. of
Chi..138 S. Ct. 13. 17 (20i7); Bowles v. Russell, 551 IT.fi. 205. 214 (2007). The
lack of a timely notice mandates dismissal of the appeal.

;»

United States v.

Garcia-Machado, 845 F. 2d 492. 493 (5th Cir. 1988). Accordingly, the appeal
is DISMISSED for want of jurisdiction.

y

/
/

\

2

V

.-Vtj

20-30384

Mr. Demetrice Williams
#310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

\

1

'W

1

Case: 20-30384

Document: 00515494384

Page: 1

Date Filed: 07/17/2020

No. 20-30384

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 20-30384

DEMETRICE WILLIAMS,

A True Copy
Certified order issued Jul 17, 2020

Petitioner - Appellant

W. CtMjU.
Clerk, U.S. Court of Ap peals, Fifth Circuit

V.

SANDY MCCAIN, WARDEN, RAYMOND LABORDE CORRECTIONAL
CENTER; DEPARTMENT OF CORRECTIONS, STATE OF LOUISIANA,
Respondents - Appellees

Appeal from the United States District Court
for the Eastern District of Louisiana

Before DAVIS, SOUTHWICK, and HAYNES, Circuit Judges.
PER CURIAM:
This court must examine the basis of its jurisdiction, on its own motion
if necessary. Hill v. City of Seven Points, 230 F.3d 167. 169 (5th Cir. 2000).
Pursuant to 28 U.S.C. § 210704) and Federal Rule of Appellate Procedure
4(aVT)0A). the notice of appeal in a civil case must be filed within thirty days
of entry of judgment.

----- ---- -------

-__

In this habeas corpus case filed by a state prisoner, the final judgment
was entered and certificate of appealability was denied on March 30, 2020.
Therefore, the final day for filing a timely notice of appeal was April 29, 2020.
The petitioner’s pro se notice of appeal is dated June 14, 2020 and stamped as
1
5

r

•M

Case: 20-30384

Document: 00515494384

•

Page: 2

Date Filed: 07/17/2020

No. *20-*30384

filed on June 18, 2020. Because the notice of appeal is dated June 14, 2020, it
could not have been deposited in the prison’s mail system within the prescribed
time. See FED. R. APP. P. 4(cVll (prisoner’s pro se notice of appeal is timely
filed if deposited in the institution’s internal mail system on or before the last
day for filing). When set by statute, the time limitation for filing a notice of
appeal in a civil case" is jurisdictional! Hamer v. Neighborhood Hous. Servs. of
Chi,.. 138 S. Ct. 13. 17 (2017); Bowles v. Russell, 551 IT.S. 205. 214 (2007).' The
lack of a timely notice mandates dismissal of the appeal.

United States v.

Garcia-Machado, 845 F. 2d 492. 493 (5th Cir. 1988). Accordingly, the appeal
is DISMISSED for want of jurisdiction.

2

\

;s

\

U.S. District Court - Eastern District of Louisiana

Demetrice Williams 310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327
*6

Case: 2:19-CV-11974 #16
4 pages.
Mon Mar 30 17:02:03 2020

6

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
DEMETRICE WILLIAMS

CIVIL ACTION

VERSUS

NO. 19-11974

(WARDEN) SANDY MCCAIN

SECTION “F”(4)

ORD E R
The Court, having considered the complaint, the record, the applicable law, the Report and
Recommendation of the Chiel United States Magistrate Judge, and the objections to the Chief
Magistrate Judge’s Report and Recommendation filed by the plaintiff on March 2,2020 (Rec. Doc.
No. 15), hereby approves the Report and Recommendation of the Chief United States Magistrate
Judge and adopts it as its opinion in this matter. Therefore,
IT IS ORDERED that Demetrice Williams’s petition for issuance of a writ of habeas
corpus filed pursuant to 28 U.S.C. § 2254 be DISMISSED WITH PREJUDICE as time-barred.
New Orleans, Louisiana, this 30th day of

March

.

, 2020.

t •

.......... . . ,.llWln_
jmARTIN

fp:. FElJpMAN
UNITED STATOS DISTRICT JUDGE

/

'"H ' "~ .i

MIME-Version:1.0
From:EfileJ'Joticeflaed.uscourts.gov
To:Efile^Information

Bcc:
~
, ,
—Case Participants: Megan Teresa Suffern (msuffern@stbda.org,
mtsuffer@gmail.com)
—Non Case Participants:
—No Notice Sent:
Message-Id:<10394G63@laed.uscourts.gov>
Subject:Activity in Case 2:19-cv-11974-MLCF Williams v. McCane, et al.
Order Adopting Report and Recommendations
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of Louisiana
Notice of Electronic Filing
.
,
The following transaction was entered on 3/30/2020 4:06 PM CDT and filed
on 3/30/2020
Case Name: Williams v. McCane, et al.
Case Number:■ 2:19-cv-11974-MLCF.
https,://ecf.laed .uscourts.gov/cgi-bin/DktRpt.pl?240710
Filer:
Document Number: 16
Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https://ecf.laed.uscourts.gov/docl/085111643971?caseid=240710&de„seq=num=51
&magic^num=MAGIC

Docket Text:
ORDER ADOPTING REPORT AND RECOMMENDATIONS
. 4_. .. . ,
[12] - The Court hereby approves the Report and Recommendation of the Chiei
United States Magistrate Judge and adopts it as its opinion in this matter.
Therefore, IT IS ORDERED that Demetrice Williams's petition for issuance
of a writ of habeas corpus filed pursuant to 28:2254 be DISMISSED WITH
PREJUDICE
as time-barred. Signed by Judge Martin L.C. Feldman on 3/30/2020.(sa)

2:19-cv-11974-MLCF Notice has been electronically mailed to:
Megan Teresa Suffern msuffern@stbda.org, mtsuffer@gmail.com
2:19-cv-11974-MLCF Notice has been delivered by other means to:
Demetrice Williams
310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

The following document(s) are associated with this transaction:

/S

.'A.5

Document description: Main DocumentOriginal filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp_I0=1091133085 [Date=3/30/202O] [FileNumber=10394062-0]
[304b9adl41fcOb81051beal532ea036ee6cf8d313b97cf81738b62d9c0a5d313ec618102fe
cdOea98233834479523ce967cfbd6968bfdf0f3266ab5elfd8e9d2]]

4

U.S. District Court - Eastern District of Louisiana

Demetrice Williams 310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

Case: 2:19-cv-11974 #17
4 pages.
Mon Mar 30 17:02:10 2020

/

V.
' fc

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
DEMETRICE WILLIAMS

CIVIL ACTION

VERSUS

NO. 19-11974

(WARDEN) SANDY MCCAIN

SECTION “F”(4)

JUDGMENT
The Court having approved the Report and Recommendation of the Chief United States
Magistrate Judge and having adopted it as its opinion herein; accordingly,
IT IS ORDERED, ADJUDGED, AND DECREED that there be judgment in favor of
the respondents. Warden Sandy McCain, and against the petitioner, Demetri.ee Williams,
i

dismissing with prejudice Williams’s petition for issuance of a writ of habeas corpus pursuant to
28 U.S.C. § 2254 as time-barred.
New Orleans, Louisiana, this 30th day of

March

, 2020.

MARTIN 1 'C. FELDMAN
UNITED. STAt S DISTRICT JUDGE

y

v

MIME-Version:1.0
From:EfileJYoticeglaed.uscourts.gov
To:Efile^Information
Bcc:
—Case Participants: Megan Teresa Suffern (msuffern@stbda.org,
nitsuf fer@gmail. com)
—Non Case Participants:
—No Notice Sent:
Message-Id:<10394071@laed.uscourts.gov>
Subject:Activity in Case 2:19-cv-11974-MLCF Williams v. McCane, et al.
Judgment
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/'ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States
policy permits attorneys of record and parties in a case (including pro se
litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer. PACER
access fees apply to all other users. To avoid later charges., download a
copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Eastern District of Louisiana
Notice of Electronic Filing
The following transaction was entered on 3/30/2020 4:11 PM CDT and filed
on 3/30/2020
Case Name: Williams v. McCane, et al.
Case Number: 2:19-CV-11974-MLCF
https://ecf.laed.uscourts.gov/cgi-bin/DktRpt.pi7240710 "
Filer:
WARNING: CASE CLOSED on 03/30/2020
Document Number: 17
Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https: //ecf. laed. uscourts .gov/docl/085111643981?caseid-24O710&dera.seq„rnum=-:54
&magic_num=MAGIC

Docket Text:
JUDGMENT - IT IS ORDERED, ADJUDGED,
AND DECREED that there be judgment in favor of the respondents, Warden
Sandy
McCain, and against" the petitioner, Demetrice Williams, dismissing with
prej udice
Williams's petition for issuance of a writ of habeas corpus pursuant
to 28:2254 as time-barred. Signed by Judge Martin L.C. Feldman on
3/30/2020.(sa)

2:19-cv-11974-MLCF Notice has been electronically mailed to:
Megan Teresa Suffern msuffern@stbda.org, mtsuffer@gmail.com
2:19-cv-11974-MLCF Notice has been delivered by other means to:
Demetrice Williams
310096
Raymond Laborde Correctional Center
1630 Prison Road

, '‘:w< ,

Cottonport, LA 71327

The following document(s) are associated with this transaction:
Document description: Main Document
Original filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp 10=1091133085 [Date=3/30/2O20] [FileNumber=lO394070-0]
[4b3dlc717348036a97d6cc754bb959O74c669629bd782428622273S33570d2a575b8917855
32fc7ef66bd9bdc8e64be7bc7ced48e6c88f392811a98c3381473d]]

. 4-

• A
■

\

"\

t

1

U.S. District Court - Eastern District of Louisiana

Demetrice Williams 310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

Case: 2:19-CV-11974 #18
5 pages.
Mon Mar 30 17:02:18 2020

At

:*

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

DEMETRICE WILLIAMS

CIVIL ACTION

VERSUS

NO. 19-11974

(WARDEN) SANDY MCCAIN

SECTION: “F"(4)

CERTIFICATE OF APPEALABILITY
Having separately issued a final order in connection with the captioned habeas corpus
proceeding, in which the detention complained of arises out of process issued by a state
court, the Court, after considering the record and the requirements of 28 U.S.C. § 2253 and

'•V

Fed. R. App. P. 22(b), hereby orders that,

a certificate of appealability shall be issued having found that petitioner has made a
substantial showing of the denial of a constitutional right related to the following
issue(s):

x__a certificate of appealability shall not be issued for the following reason(s):
The petitioner has failed to make a substantial showing of the denial of a
constitutional right. The petitioner has failed to show that reasonable iurists_
could debate whether the motion should have been resolved in a different
manner or that the issues presented were adequate to deserve
encouragement to proceed further. See Order dated March 30, 2020, in
which the Court adopted the magistrate judge's Report & Recommendations
fsigned on lanuarv 23. 2020 and entered on fanuarv 24, 2020).that the..

X

petitioner's federal habeas corpus petition be dismissed with prejudice as
time-barred.
New Orleans, Louisiana, this 30 th day of March, 2020.

jA

Ne

MARTIN L.C. FELDMAN
UNITED ST AT iS DISTRICT JUDGE

k

MIME-Version:1.0

From: Ef ileJ'!otice@laed. uscourts. gov
To:Efile^Information
Bcc:
—Case Participants: Megan Teresa Suffern (msuffern@stbda.org,
mtsuffer@gmail.com)
—Non Case Participants: 5CA Appeal Case Managers
(allison^lopez@ca5.uscourts.gov, connie^brown@ca5.uscourts.gov, mary^c^stewartgcaS.uscourts.gov,
shearapertuit@ca5.uscourts.gov), Appeals Unit (appeals@laed.uscourts.gov)
—No”Notice Sent:
Message-Id:<10394079@laed.uscourts.gov>
Subject:Activity in Case 2:19-cv-11974-MLCF Williams v. McCane, et al.
Certificate of Appealability Denied by USDC
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States
policy permits attorneys of record and parties in a case (including pro se
litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer. PACER
access fees apply to all other users. To avoid later charges, download a
copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Eastern District of Louisiana

....

Notice of Electronic Filing
The following transaction was entered on 3/30/2020 4:12 PM CDT and filed
on 3/30/2020
Case Name: Williams v. McCane, et al.
Case Number: 2:19-CV-11974-MLCF
https://ecf.laed.uscourts.gov/cgi-bin/DktRpt.pl?240710
Filer:
WARNING: CASE CLOSED on 03/30/2020
Document Number: 18
Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https://ecf.laed.uscourts.gov/docl/085111643990?caseid=24O710&de=rseqmrnum-56
&magic„num=MAGIC

Docket Text:
Certificate of Appealability Denied
by USDC. Signed by Judge Martin L.C. Feldman on 3/30/2020.(sa)

2:19-cv-11974-MLCF Notice has been electronically mailed to:
Megan Teresa Suffern msuffern@stbda.org, mtsuffer@gmail.com
2:19-cv-11974-MLCF Notice has been delivered by other means to:
Demetrice Williams
310096
Raymond Laborde Correctional Center
1630 Prison Road
Cottonport, LA 71327

The following document(s) are associated with this transaction:
Document description: Main Document
Original filename: n/a.
Electronic document Stamp:
[STAMP dcecfStamp 10=1091133085 [Date=3/30/2O2O] [FileNumber=10394078-0]
[be0570687300f59ea39574f813a4O6O3d71ca5475908a84d8ala5dc887dac3908e719c74bf
de74e5855ac4d5fC62d7c496ab8784f583e21b640673effc77d9c2]]

• • If
i;

St. Bernard Parish Sheriff s Office
Sheriff James J. Pohlmann
CRIMINAL RECORDS DIVISION
i

LETTER OF INCARCERATION
To: Mr. Pemetrice WKjams

Incarcerated Subject
Name: Pemetrice Williams

a/k/an/a
SSN: XXX-XX-4373
* RACE: Black

SEX: Male

DATE OF BIRTH: 7/13/1970

Dear Mr. Williams_____________ ,
Our records indicate that the above referenced individual has been incarcerated in the St.
Bernard Parish. Prison as follows:

1) FROM'5/27/1999

TQ 9/15/2000

2) FROM~

TO

/

3) FROM________

% -v

4) FROM________

TO

$) FROM________

TO

If we can be of any further assistance to you, please do not hesitate to contact us.

*
C

(

tr

2 Courthouse Sq. Chalmette, LA70043
504.278.7625

^ •

RECEIVED
SEP 3 0 2020

i

SHERIFF AND TAX COLLECTOR’S OFFICE
PLAQUEMINES PARISH DETENTION CENTER
16801 HIGHWAY 15
. DAVANT, LA 70040
Lonnie Greco
Sheriff and Ex-Officio
Tax Collector

Date:

Phone: (504) 934-7t
Admin Fax: (504) 684Main Control Fax: (504)2
Intake Booking Fax !SQ4)

9- I n
/

Bros; t-iejiEcrsss rEnteis ^3
1S801 Highway 15
Davant La 70040

'£3— -Zerzsr

i

To: Department Of Corrections
Records / Classifications
Inmate Name.-J^A lit 5mC

Af
CL«S

•t

R/S

& / m

DOB ’"7-

Inmate Booking #

Division
Docket Number
Years Of Sentence

Date Of Arrest
Date Of Sentence

Previous Date Of Arrest:
Arrested

Q - 20-GO

Released

3-%*/-Of

Parish Official

Pi\Q.Cl

Q

h

Contact Phone Num

5m 93V- nun
'Ibo

